U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530

September 10, 2019
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

Manfredo M. Salinas v. U.S. Railroad Retirement Board,
S.CtNo. 19-199

Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on August 15,
2019, and placed on the docket on August 15, 2019. The government's response is due on
September 16, 2019.
We respectfully request, imder Rule 30.4 of the rules of this Court, an extension of time
to and including October 16, 2019, within which to file the government's response.
This extension is requested to complete preparation of the government's response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Noel J. Francisco
Solicitor General
cc: See Attached Service List

19-0 199
SALINAS, MANFREDO M.
U.S. RAILROAD RETIREMENT BOARD

LISA S. BLATT
WILLIAMS & CONNOLLY LLP
725 TWELFTH STREET, NW
WASHINGTON, DC 20005
202-434-5000
LBLATT@WC.COM

